   November 24, 2006




Financial Management
Controls Over Army Cash and Other
Monetary Assets
(D-2007-028)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CDS                   Central Disbursing Services
CONUS                 Continental United States
DFAS                  Defense Finance and Accounting Service
DMPO                  Defense Military Pay Office
FMR                   Financial Management Regulation
OMB                   Office of Management and Budget
SF                    Standard Form
SRD1                  Standard Finance System Redesign Subsystem 1
STANFINS              Standard Finance System
USACE                 U.S. Army Corps of Engineers
USSGL                 U.S. Government Standard General Ledger
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704


                                                                       November 24,2006
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Controls Over Army Cash and Other Monetary Assets
         (Report No. D-2007-028)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DoD Directive 7650.3 requires .that all recommendations be resolved promptly.
Comments provided by the Director of the Defense Finance and Accounting Service
Indianapolis Operations were not responsive. We request additional comments from the
Director of the Defense Finance and Accounting Service Indianapolis Operations on
Recommendations 2.a, 2.b, 2.c.i, and 2.d.i by January 26,2007. We deleted
recommendation 2.f.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudDFS@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Jack L. Armstrong at (3 17) 5 10-4801, ext. 274 (DSN 699-4801) or
Mr. Craig W. Michaels at (317) 510-4801, ext. 230 (DSN 699-4801). See Appendix F
for the report distribution. The team members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:



                                          ~ a u ~ r a n e t tCPA
                                                             o,
                                 Assistant Inspector General and Director
                                   Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2007-028                                                  November 24, 2006
   (Project No. D2005-D000FI-0271.000)

                     Audit of Controls Over Army Cash and
                             Other Monetary Assets

                                  Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for recording,
reporting, and safeguarding Army Cash and Other Monetary Assets should read this
report. It discusses Army cash controls and auditability.

Background. The FY 2005 DoD Agency-wide Consolidated Balance Sheet reported
$2.1 billion in Cash and Other Monetary Assets. Of this amount, $1.5 billion, or
72 percent, was reported on the Army General Fund balance sheet. The $1.5 billion
reported on the Army General Fund balance sheet included $0.4 billion (25 percent) of
operational cash accounted for in the Continental United States and $1.1 billion
(75 percent) of cash accounted for outside of the Continental United States. In
August 2005, the Army’s Chief Financial Officers Strategic Plan reported that the Army
would be ready to assert by October 31, 2005, that the Cash and Other Monetary Assets
line on the Army General Fund balance sheet was auditable. To assist the Army in
determining its readiness for an audit, we reviewed the internal controls over the
accounting data related to the operational cash and other monetary assets accounted for in
the Continental United States to determine whether the data were recorded, accumulated,
and reported properly and that the assets were adequately safeguarded.

Results. Internal and physical controls over Army cash were inadequate. The Assistant
Secretary of the Army (Financial Management and Comptroller) needs to develop a plan
to resolve internal control weaknesses identified in this report and include it in the Army
Chief Financial Officers Strategic Plan and the Financial Improvement and Audit
Readiness Plan.

The Director, Central Disbursing Services at Defense Finance and Accounting Service
Indianapolis needs to develop a complete roster of agent officers so that they can be
easily contacted when information is needed. Central Disbursing Services should enforce
the existing requirement that agent officers sign and return the Statements of Agent
Accountability upon receipt. Also, bringing the Central Disbursing Services Procedures
Manual and limited depositary accounts operating procedures into compliance with
DoD 7000.14-R, “DoD Financial Management Regulation,” requirements will improve
accountability over cash assets and bring the Army Cash and Other Monetary Assets line
of accounting closer to being auditable.

U.S. Army Corps of Engineers Finance Center can better safeguard cash assets and
disbursing staff by implementing procedures to verify blank check stock and limited
depositary accounts and by improving physical security measures to meet the
requirements of DoD 7000.14-R, “DoD Financial Management Regulation.” (See
detailed recommendations at the end of the Finding section.)
Management Comments and Audit Response. The Assistant Secretary of the Army
(Financial Management and Comptroller) concurred with the recommendation to include
tasks that address the internal control deficiencies in the Army Chief Financial Officers
Strategic Plan and the Financial Improvement and Audit Readiness Plan by
March 31, 2007. As a result, we deleted the recommendation to the Director, Central
Disbursing Services for disclosing cash accounting and reporting internal control
weaknesses in the Central Disbursing Services’ internal control program.

Comments provided by the Director, Defense Finance and Accounting Service
Indianapolis Operations were responsive for nine of the recommendations. The Director
stated that the procedures in the Centralized Disbursing Services Procedures Manual
were updated July 26, 2006. The updated manual provides improved procedures for cash
verifications and reporting, Treasury check stock and blank check internal controls, and
physical security over cash. It requires that agent officer appointment letters meet the
requirements in the DoD 7000.14-R, “DoD Financial Management Regulation.” In
addition, the Director agreed to update the limited depositary accounts operating
procedures to require the disbursing officer to review and sign Statements of Designated
Depositary Accounts and to ensure emphasis is placed on limited depositary account
training.

The Director’s comments were not responsive to four of the recommendations. The
Director stated that there is no regulatory requirement to centrally maintain an agent
officer roster. We agree. However, there is a requirement that sufficient detail be
retained to permit the tracing of transactions to the original source. Maintaining an agent
officer roster would temporarily meet this audit trail requirement. The Director stated
that queries of a Treasury system to obtain copies of signed checks would be proof of
receipt of funds when a Statement of Agent Officer’s Account is not returned. The
Director’s reply emphasizes reactive measures and requires DFAS to seek proof of
receipt instead of enforcing regulatory requirements and retaining proof of agent officer
fiduciary responsibility. The Director did not agree to require all agent officers to
prepare and submit Daily Agent Accountability Summaries. Without a daily record of
transactions from Army paying agents, the Army will be unable to provide an adequate
audit trail. Finally, the Director stated it is not practical for activities in remote areas to
receive and reconcile banking statements within 30 days. The Director plans to request
that the DoD 7000.14-R, “DoD Financial Management Regulation,” requirement be
changed to 60 days. We agree that the 30-day reconciliation regulatory requirement is
not practical for remote activities; however, the DoD 7000.14-R, “DoD Financial
Management Regulation,” should be updated to define when a waiver to the 30-day rule
can be granted and the process for granting it. We request that the Director reconsider
his position on these four recommendations and provide additional comments to the final
report by January 26, 2007.

The Director, U.S. Army Corps of Engineers Finance Center concurred with the
recommendations and stated they have implemented programs and updated procedures to
address issues related to independent verifications and security procedures. See the
Finding section for a discussion of management comments and the Management
Comments section for the complete text of the comments.




                                               ii
Table of Contents

Executive Summary                                   i

Background                                          1

Objectives                                          3

Managers’ Internal Control Program                  3

Finding
     Controls Over Cash                             4

Appendixes
     A. Scope and Methodology                      19
         Prior Coverage                            20
     B. Glossary                                   23
     C. Criteria                                   25
     D. Disbursing Officer Cash Accountability     27
     E. Assertion Phases                           28
     F. Report Distribution                        29

Management Comments
     Department of the Army                        31
     Defense Finance and Accounting Service        32
     U.S. Army Corps of Engineers Finance Center   36
Background
           In August 2005, the Army’s Chief Financial Officers Strategic Plan reported that
           the Army would be ready to assert on the Cash and Other Monetary Assets line of
           the Army General Fund balance sheet by October 31, 2005. 1 By asserting on
           Cash and Other Monetary Assets, Army management would be representing that
           the line item is auditable. The Defense Finance and Accounting Service (DFAS)
           Indianapolis Audit Liaison Office requested that we perform this audit.

           Cash and Other Monetary Assets. DoD 7000.14-R, “DoD Financial
           Management Regulation,” (FMR) provides guidance for controlling, recording,
           and reporting Cash and Other Monetary Assets. FMR, volume 6B, chapter 4,
           defines “cash” as coins, paper currency, and readily negotiable instruments such
           as money orders, checks, and bank drafts on hand or in transit for deposit. The
           term also includes U.S. and foreign currencies on demand deposit with banks or
           other financial institutions. “Other Monetary Assets” includes gold, special
           drawing rights, and U.S. Reserves in the International Monetary Fund.

           FMR, volume 4, chapter 2, further defines the “Disbursing Officer’s Cash”
           general ledger account as the account used to record the amount of U.S. Treasury
           cash held by disbursing officers and for which they are personally liable. The
           balance in this account is not considered an asset of a DoD Component for
           external statement purposes; rather it represents U.S. Treasury cash advanced to
           disbursing officers. Sources of entries to the account include requests for cash,
           invoices for transferred funds, reimbursement vouchers, and disbursement
           records. Office of Management and Budget (OMB) Circular A-127, “Financial
           Management Systems,” requires that agency financial management system
           requirements comply with application of the U.S. Government Standard General
           Ledger (USSGL) at the transaction level. Appendix C contains additional OMB
           and FMR cash accounting and reporting requirements.

           Disbursing Officer Responsibility. Managers who supervise personnel holding
           cash are accountable for maintaining appropriate accounting and internal controls
           over the assets. This responsibility includes insuring the legality, propriety, and
           correctness of disbursements and collections of public funds. The function of
           regularly receiving and maintaining custody of public funds is generally
           performed by disbursing officers and their duly appointed “agent officers” such as
           deputy disbursing officers, agents, and cashiers.

           The disbursing officers are accountable to the U.S. Treasury for the cash items,
           including receivables, in their possession. The Statement of Accountability,
           Standard Form (SF) 1219 (Monthly Accountability Form) is the disbursing
           officer’s official monthly record and report of cash accountability. The
           disbursing officer’s daily accountability is maintained on the Daily Statement of
           Accountability, SF 2657 (Daily Accountability Form). Disbursement and
           collection transactions are reported on both the Monthly and Daily Accountability

1
    The April 2006 Edition of the Army Chief Financial Officers Strategic Plan reported that the Army would
    assert on the Cash and Other Monetary Assets line of the Army General Fund balance sheet by
    September 29, 2006.



                                                      1
           Forms. Cash in the possession of disbursing officers should be reconciled daily
           using the Daily Accountability Form as the permanent written record. Documents
           representing cash for which the disbursing officer remains accountable, such as
           receipts for advances to agent officers, should be kept in the disbursing officer’s
           vault or safe and accounted for daily on the forms described above.

           The FMR states that the Daily Agent Accountability Summary, Department of
           Defense (DD) Form 2665 (Agent Accountability Form) is the daily accountability
           document for agent officers. Preparation of the Agent Accountability Form
           includes an actual count of all cash and negotiable instruments in the possession
           of the agent officers. Agent officers should use the Statement of Agent Officer’s
           Account, DD Form 1081 (Agent Account Statement) as a summary of cash
           transactions and receipt for cash or to close agent officer accounts. Collection
           and disbursement vouchers, Agent Accountability Forms, and any remaining cash
           must be turned in to the disbursing officer with the Agent Account Statement.
           The disbursing officer or deputy disbursing officer should normally balance all
           agent officers’ cash daily, using the Agent Accountability Form. However, agent
           officers who are remotely located from the disbursing officer (for example,
           disbursing officer in Indianapolis with an agent officer in Afghanistan) are not
           required to submit the Agent Accountability Form to the disbursing officer daily.
           To maintain a daily record of transactions, agent officers in remote locations still
           must prepare a daily Agent Accountability Form. The Agent Accountability
           Forms along, with all supporting documentation (collection and disbursement
           vouchers and bank deposit tickets) and the Agent Account Statement, should be
           submitted to the disbursing officer whenever a turn-in is completed. The flow
           chart in Appendix D shows the accountability for cash.

           DFAS Central Disbursing Services. The Central Disbursing Services (CDS) at
           DFAS Indianapolis Operations prepares and distributes payments and collections
           for the Army. CDS performs disbursing operations in partnership with
           organizations that certify payments, accept collections, and maintain accounting
           records. These organizations include field sites, 2 U.S. Property and Fiscal
           Offices, and DFAS Indianapolis Operations. CDS maintains a procedures manual
           that provides implementing guidance and letters of instruction for CDS operations
           and functions.

           U.S. Army Corps of Engineers Finance Center. The U.S. Army Corps of
           Engineers (USACE) Finance Center, Millington, Tennessee, performs the
           financial accounting and reporting for USACE including the disbursement of
           funds. The USACE Finance Center does not physically maintain cash; however,
           the disbursing officer is accountable for, and makes disbursements from, cash on
           deposit in limited depositary accounts, including foreign currency. USACE
           reported $344 million of foreign currency on deposit in limited depositary
           accounts at the end of FY 2005.

           Army General Fund Cash. The Army General Fund accounted for $1.5 billion
           (72 percent) of the $2.1 billion of Cash reported on the FY 2005 DoD
           Agency-wide Consolidated Balance Sheet. Of the $1.5 billion in Army cash,


2
    Field sites are DFAS activities that provide installation level finance and accounting services.


                                                        2
           $0.4 billion (25 percent) was accounted for at sites in the Continental United
           States (CONUS). The remaining $1.1 billion (75 percent) in Army cash was
           accounted for at sites outside CONUS.

           Assertion Process. The Army’s Chief Financial Officers Strategic Plan, Army’s
           road map to achieving a favorable audit opinion on the Army’s annual financial
           statements, supports the Army’s input into the DoD Financial Improvement and
           Audit Readiness Plan. The DoD Financial Improvement and Audit Readiness
           Plan was developed to improve financial accounting and reporting processes and
           controls. According to the DoD Financial Improvement and Audit Readiness
           Plan, there are five phases that make up the assertion process. Appendix E
           describes those five major phases. In August 2005, the Army’s Chief Financial
           Officers Strategic Plan reported that the Army would reach the “Assertion” phase
           for the cash line of accounting by October 31, 2005. However, at that time the
           Army was only in the “Discovery/Correction” phase. As part of the
           “Discovery/Correction” phase, the DFAS Indianapolis Operations Audit Liaison
           Office requested that the DoD Office of Inspector General review the internal
           controls over cash. The DFAS Indianapolis Operations Audit Liaison Office is
           compiling an assertion package for Army cash, so that when internal control
           deficiencies are corrected, the Army will be able to assert audit readiness.


Objectives
           Our audit objective was to determine whether internal controls over Army Cash
           and Other Monetary Assets provide reasonable assurance that accounting data are
           recorded, accumulated, and reported properly and that assets are safeguarded. We
           also reviewed the management control program as it related to the objective. See
           Appendix A for a discussion of the scope and methodology and for prior coverage
           related to the objectives.


Managers’ Internal Control Program
           We identified material internal control weaknesses at CDS, as defined by DoD
           Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
           DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996. 3 Internal and physical controls were not adequate to ensure that
           cash was properly recorded, reported, and safeguarded. Recommendations 1., 2.,
           and 3., if implemented, will improve cash controls. The finding section discusses
           the details of the internal control weakness and the adequacy of management’s
           self evaluation process. A copy of the final report will be provided to the senior
           official responsible for the Internal Control Program at DFAS Indianapolis
           Operations.

3
    We reviewed internal controls under the auspices of DoD Directive 5010.38, “Management Control (MC)
    Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD Instruction
    5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January 4, 2006.


                                                    3
           Controls Over Cash
           Internal and physical controls over Army cash were inadequate. Controls
           were deficient in the following areas.

                   •   Audit trails were inadequate and DFAS did not use USSGL
                       accounting to prepare the Army General Fund balance sheet.

                   •   Cash receipts, returns, and daily transactions were not timely
                       recorded and reported.

                   •   Verifications and reconciliations were inadequate, were not
                       properly reported, or were not consistently performed.

                   •   Physical security over cash was inadequate.

                   •   Agent officer appointment letters were not properly prepared.

           The Army and DFAS were not in compliance with the OMB and FMR
           requirements. Disbursing officer standard operating procedures were not
           updated to reflect the requirements in the FMR. As a result, there was no
           assurance that cash transactions were recorded, accumulated, and reported
           properly and that cash was adequately safeguarded. DFAS Indianapolis
           Operations did not rely on general ledger data and made a $1.5 billion
           adjustment to an unreliable and unauditable source to record cash on the
           Army General Fund balance sheet. Inadequate internal controls increased
           the vulnerability to fraud and potential misstatement of cash on the Army
           General Fund balance sheet. The Army will not be able to assert that cash
           reported on the Army General Fund balance sheet is ready for audit until
           they overcome audit trail impediments.


Audit Trails and General Ledger Accounting
    Audit trails were inadequate to verify operational, unclassified, CONUS
    disbursing officer cash reported on the Army General Fund balance sheet.
    Financial transactions could neither be traced from origin to the financial
    statements nor from the financial statements back to the point of origin. The
    Army did not use a transaction-driven, USSGL compliant accounting system to
    record, accumulate, and report cash transactions. Cash accountability was not
    always updated or closed out in a timely manner. In addition, the Army did not
    maintain a central repository of detailed agent officer information such as agent
    cash accountability and contact information.

    General Ledger at the Transaction Level. The $1.5 billion cash amount
    reported on the FY 2005 Army General Fund Balance Sheet was not based on
    USSGL transactions. OMB Circular A-127, “Financial Management Systems”
    and the FMR, volume 1, chapter 3 require transactions to be recorded in general
    ledger accounts. Cash reported on the Army General Fund balance sheet was
    derived from the Monthly Accountability Form (SF 1219), which was not


                                         4
           prepared from accounting transactions under double-entry general ledger
           controls. 4 DFAS Indianapolis Operations did not rely on the amount reported in
           the field accounting systems and made an adjustment to the accounting records to
           record the $1.5 billion reported on the Monthly Accountability Form. The
           Monthly Accountability Form provides monthly summary totals of all receipts
           and expenditures of public funds occurring during the accounting period and the
           status of the disbursing officer’s account at the close of that period. However, the
           Monthly Accountability Form needs to be reliable and auditable.

           Accounting for Army Cash. Accounting personnel did not enter cash
           transactions into the Standard Finance System Redesign Subsystem 1 (SRD1) and
           Standard Finance System (STANFINS) in a timely manner. CDS cash payments
           and collections are recorded by the accounting personnel into SRD1, a module of
           STANFINS. Both SRD1 and STANFINS are legacy systems. STANFINS is a
           fully-automated, Army-wide standard accounting system designed to provide
           support at Army installations and general ledger control over financial resources.
           SRD1 summarizes Army cash payment and collection transactions and passes
           them electronically to STANFINS to automatically update the cash balance in the
           general ledger.

           None of the 107 paying agents of the deputy disbursing officer at the Defense
           Military Pay Office (DMPO) Pentagon with cash on hand as of December 13,
           2005, entered disbursements into SRD1 as they occurred. The deputy disbursing
           officer only entered the cash advances to the agents and cash returns from the
           agents into SRD1 to close out cash accountability. In addition, CDS reported
           $10,000 cash on hand at the DMPO, Fort Knox, Kentucky, on September 30,
           2005. Our observation of cash verification on February 9, 2006, was $9,500 cash
           on hand. The $500 difference was a travel advance disbursed by the DMPO
           5 months earlier on September 9, 2005. Because the Service member was in the
           Air Force, the deputy disbursing officer did not have all the necessary information
           to enter the transaction into SRD1. CDS had directed the deputy disbursing
           officer to submit a copy of the voucher and supporting documents so they could
           process the transaction in SRD1; however, at the time of our observation CDS
           had not processed the transaction.

           Central Repository of Detailed Agent Officer Information. CDS did not
           maintain an updated central file containing detailed agent information such as
           agent cash accountability and contact information. In addition, CDS was not able
           to provide the number of agent officers accountable to the disbursing officer. A
           central repository containing detailed information is needed to comply with the
           audit trail requirements of FMR, volume 6A, chapter 2. CDS was able to provide
           the names and locations for deputy disbursing officers and cashiers; however,
           CDS could not provide up-to-date information on how many agents existed, agent
           identity, location, and cash on hand for those agent officers who did not report
           directly to the disbursing officer. For example, CDS could not provide the
           location of the 107 paying agents that received advances from the deputy
           disbursing officer at the DMPO Pentagon. CDS would have to execute a data call

4
    General ledger controls include double-entry accounting (debits and credits) for assets, liabilities, equity,
    expenses, losses, gains, transfers in and out, and financing sources. These controls also include summary
    and detail general ledger accounts with the detail accounts reconcilable to the summary accounts.



                                                         5
           or perform extensive manual work to obtain the names, locations, or cash on hand
           for all individuals accountable to the disbursing officer. The lack of a central file
           of detailed agent information creates a significant obstacle for developing a
           universe of agent officers and transactions to review.


Cash Receipts, Returns, and Transaction Reporting
           The cash in custody of agents reported on the Monthly Accountability
           Form (SF 1219) was unreliable and unauditable. The cash balance reported on
           the Monthly Accountability Form includes cash in the hands of agent officers
           reported on their Agent Account Statement (DD Form 1081). The Agent
           Accountability Form (DD Form 2665) shows the daily transactions that have
           occurred that increased or decreased the cash the agent received with the original
           Agent Account Statement. The total cash accountability on the Agent Account
           Statement and the Agent Accountability Form should be equal. Timely
           completion and submission of the Agent Account Statement and the Agent
           Accountability Form is essential for accurate reporting of cash balances because
           the Agent Account Statement and the Agent Accountability Form provide support
           for the amounts on the Monthly Accountability Form.

           Statement of Agent Officer’s Account (DD Form 1081). Agent officers were
           not always properly acknowledging the receipt of cash advances from CDS or
           properly closing out their accounts. FMR, volume 5, chapter 19 requires that
           agent officers sign and date the Agent Account Statement to verify and
           acknowledge that the items received agree with the amounts stated on the Agent
           Account Statement, and that the original Agent Account Statement is returned to
           the disbursing officer as a receipt. In addition, the FMR requires that an Agent
           Account Statement be prepared by agent officers as a summary of cash
           transactions and vouchers on hand each time turn-in or settlement of the account
           occurs.

                  Acknowledgement of Cash Receipt. Only 8 of 20 CDS paying agents
           we reviewed had signed the Agent Account Statement when they initially
           received funds and had returned it to the disbursing office. CDS personnel were
           not emphasizing to agent officers that they had to return the Agent Account
           Statement after receiving the initial cash advance. CDS personnel were instead
           depending on a Treasury Department check system 5 to verify that agent officers
           had received funds. This lack of controls over returning signed original Agent
           Account Statements (DD Forms 1081) upon receipt of the initial cash advance
           could result in individuals not acknowledging receipt of funds disbursed to them.
           CDS should instruct agent officers on the importance of returning the signed and
           dated Agent Account Statement after receipt of a cash advance.

                   Closing Out Agent Accounts. Agent officers neither returned unused
           cash from their advances nor prepared and submitted Agent Account Statements

5
    The Payments Accounting Claims Enhancements Reconciliation (PACER) system is a U.S. Department
    of Treasury check system that provides on-line access to payment status, the capability to initiate claims,
    and the ability to view the initial on-line disposition for Electronic Funds Transfer and check payments.



                                                        6
            immediately upon completion of their missions. 6 Agent officers were retaining
            cash and vouchers for cash disbursements after expiration of their appointments.
            For example, at the DMPO Pentagon 22 of the 248 agent advances outstanding
            had expired and had not been cleared with the deputy disbursing officer as of
            December 12, 2005. The auditors contacted 28 paying agents to determine how
            much cash they had on hand as of December 12, 2005. One paying agent did not
            report and the other 27 reported actual cash on hand of $427.8 thousand, or
            $680.8 thousand less than their Agent Account Statement balances of
            $1.1 million. The Monthly Accountability Form (SF 1219) for CDS and the
            Army General Fund balance sheet overstated the amount of disbursing officer
            cash for the Army because agent officers did not close out their accounts timely.

            Daily Agent Accountability Summary (DD Form 2665). Agent officers for the
            DMPO Pentagon did not prepare their Agent Accountability Forms for the days in
            which business was transacted. That form summarizes transactions for each
            business day and is a stand-alone document that provides a complete picture of
            the agent officer’s accountability from day to day. FMR, volume 5, chapter 19
            states that all disbursing officer deputies, agents, and cashiers must prepare an
            Agent Accountability Form (DD Form 2665) for each day business is transacted.
            The deputy disbursing officer at the DMPO Pentagon did not require agent
            officers to prepare the form daily. On December 13, 2005, the deputy disbursing
            officer at the DMPO Pentagon had 107 agent officers with $1.4 million cash
            advances outstanding. The deputy disbursing officer was not aware that the FMR
            requires that the 107 agents submit an Agent Accountability Form. He also stated
            that during his tenure as the deputy disbursing officer for CDS, such a form had
            never been submitted by agent officers. In addition, the CDS Procedures Manual
            does not provide guidance requiring that all agent officers submit the form.


Verification and Reconciliation Procedures
            Only three of the seven disbursing sites visited performed all required cash
            verification elements. These results are depicted in Table 1.




6
    For example, a mission in an appointment letter might be to make expenditures while escorting a
     Congressional staff delegation or for officially approved representation at fund events in support of a
     humanitarian award program.



                                                         7
          Table 1. Independent Verifications Conducted in FY 2005

          Sites                            Cash       Check Stock    LDA Balances

  CDS Indianapolis                         N/A            No               No
  Walter Reed Army Medical Center*         Yes            N/A              N/A
  Pentagon*                                Yes            No               N/A
  Fort Bragg*                              Yes            Yes              N/A
  Fort Campbell*                           Yes            Yes              N/A
  Fort Knox*                               No             No               N/A
  USACE Finance Center                     N/A            No               No


* These are CDS disbursing sites.

Cash Verifications. One disbursing site had not completed a quarterly cash
verification as required by FMR, volume 5, Appendix A, since September 2004.
That guidance requires quarterly independent cash verifications and provides the
cash verification procedures, a cash verification checklist, and reporting
requirements for disbursing personnel. Disbursing site reports we reviewed did
not consistently contain required information. For example, submitted reports did
not always include the required form describing the results of a physical security
review as defined in the FMR. Additionally, the date of the last quarterly cash
verification was often not stated in the current cash verification report. Most
disbursing sites that submitted reports did not report cash balances held by paying
agents, and no site actually counted out the cash held by paying agents. The cash
verification report format varied substantially among the CDS disbursing sites.
Guidance in the CDS Procedures Manual incorrectly stated that the cash
verification report need only include the total amount of cash; the beginning and
ending numbers of blank Treasury check stock pertaining to CDS; and the date,
payee, and amount of each paid deferred voucher.

Blank Check Stock Verifications. CDS and three other sites did not perform
verifications of check stock required by FMR, volume 5, Appendix A. Two of
the sites visited, CDS and Fort Knox, Kentucky, had not performed blank check
stock verifications since calendar year 2004. The USACE Finance Center had
blank check stock, but had never performed check stock verifications. The
DMPO Pentagon had independent cash verifications performed, but the
verification team did not verify blank check stock.

In addition, CDS did not maintain a control log or perform physical inventory of
blank check stock as required by FMR, volume 5, chapter 7. The CDS Manual
did not address disbursing officer responsibilities regarding control logs to
include control log review or the periodic physical inventory of blank check
stock. CDS had two types of Treasury check stock, pre-numbered stock and large
rolls of unnumbered stock (80,000 blank checks per roll). The pre-numbered
check stock was properly secured but was not inventoried every 90 days as
required by the FMR. The pre-numbered check stock was rarely used by CDS.


                                     8
Infrequent use did not negate the need for a periodic inventory because this type
of pre-numbered check stock was still used by various CDS disbursing sites.
Additionally, CDS did not prepare a blank check control log (a perpetual
inventory) for the large rolls of unnumbered check stock used on the high volume
check printers. Each blank check on a large roll has a unique inventory control
number allowing individual identification or tracking. Although the unused rolls
were inventoried on a monthly basis, no control log tracking the individual
inventory control number of each blank check was prepared. In addition, the
control log was not reviewed on a daily basis as called for in the FMR.

Limited Depositary Account Verifications. The two sites that used limited
depositary accounts did not have the account balances independently verified
quarterly, as required by FMR, volume 5, Appendix A. The USACE Finance
Center had limited depositary accounts, but had never performed the limited
depositary account balance verification. CDS had not performed limited
depositary account balance verifications since calendar year 2004.

In addition, CDS reconciliations of limited depositary accounts were not
complete, accurate, timely, or signed by the disbursing officer. FMR, volume 5,
chapter 14 states that Reconciliations should be performed by completing the
Statement of Designated Depositary Account (SF 1149). The account holder
completes this statement reconciling the limited depositary account check book
balance with the limited depositary account bank statement balance. When the
reconciliation is complete, the account holder sends the statement along with
supporting documentation to CDS for review. Our review of the 10 statements
completed for June 2005 determined that 6 of them had 1 or more of the
following discrepancies:

       •   the monetary unit, account number, or serial numbers for checks used
           were blank or not correct;

       •   the statements were not dated; or

       •   reconciliation amounts did not agree with supporting documentation.

The FMR requires that the statement be prepared and submitted within 30 days
following the close of each calendar month. The CDS operating procedures for
limited depositary account reconciliations did not include processes to monitor
the submission of statements. As a result, reconciliations were not completed and
submitted within the 30 day period for 2 of the 10 accounts. In addition, the
10 statements were signed not by the disbursing officer, but by the deputy
disbursing officer (the account holder). The FMR requires that the disbursing
officer countersign the statement before it is forwarded to the servicing DFAS
center. In this case the disbursing officer is located at DFAS Indianapolis
Operations and should sign the statements once they arrive. The deputy
disbursing officers were not knowledgeable of the procedures for completing and
processing the statements.




                                    9
Physical Security of Cash
           Disbursing officers and deputy disbursing officers did not meet the FMR
           requirements for security of cash; therefore, the cash was not physically secure.
           FMR, volume 5, chapter 3, “Safeguarding Funds and Related Documents,” lists
           several methods required to ensure the safety of the accountable assets. The FMR
           states that disbursing officers and deputy disbursing officers must:

                    •   develop a security program or policy that includes requirements for
                        personnel protection, periodic reviews of security, testing security
                        equipment, and for adequate protection for the maximum amount of
                        public funds;

                    •   maintain an Intrusion Detection System to deter entry into general
                        disbursing areas; 7

                    •   conduct semiannual inspections of office security measures;

                    •   conduct combination changes on vaults, safes, and fund containers
                        every 6 months and after personnel separations;

                    •   maintain a record of combination changes;

                    •   maintain an accountable person’s name and phone number inside the
                        vault, safe, or fund container; and

                    •   maintain strict control over the keys to the disbursing area.

           We reviewed the physical control measures at five selected sites and none
           satisfied all of the FMR requirements for the safeguarding of funds. Table 2
           presents the results of our review.




7
    The DoD supports a policy on the use of Intrusion Detection Systems for resource protection purposes;
    however, Intrusion Detection Systems are not a requirement of the FMR.



                                                     10
                           Table 2. Safeguarding of Funds

                                                           Sites Reviewed

        Safeguarding Method              CDS USACE Fort Bragg Fort Campbell Fort Knox

Security Program Maintained               No         Yes   No          No       No
Alarm System                              Yes        No    Yes         Yes      No
Semiannual Inspection                     No         No    Yes         Yes      No
Vault Combinations adjusted (6 month)     Yes        N/A   Yes         Yes      N/A
Safe Combinations adjusted (6 month)      Yes        No    N/A         No       No
Combinations adjusted (per separation)    Yes        Yes   Yes         No       Yes
Vault record of combination changes       No         N/A   Yes         Yes      N/A
Safe record of combination changes        No         Yes   N/A         No       No
Accountable individuals list in vault     Yes        No    Yes         Yes      N/A
Accountable individuals list in safe      Yes        No    Yes         Yes      No
Controls over keys to disbursing area     Yes        Yes   Yes         No       Yes


      We also observed a practice that did not ensure physical security of cash and the
      disbursing staff. The disbursing staff at the DMPO, Fort Knox, Kentucky, did not
      verify the auditors’ identity before allowing us to enter the secured area.
      Although not a requirement of the FMR or CDS Procedures Manual, failure to
      identify the individuals entering the disbursing area could risk the safety of the
      cash and disbursing staff.

      The CDS Procedures Manual did not implement FMR provisions for
      “Safeguarding of Funds.” For example, the FMR requires the development of a
      security program; however, not all of the CDS agent officers maintained one. As
      a result, disbursing officers and agent officers who use only the CDS Procedures
      Manual are not complying with the FMR or providing adequate security over
      cash.


Preparation of the Agent Officer Appointment Letter
      Appointment letters for 264 of the 296 agent officers did not contain all the
      required information, such as Disbursing Station Symbol Number or appointment
      dates. In addition, the U.S. citizenship of deputy disbursing officers was not
      verified during the appointment process. Appointment letters need to be complete
      and accurate because they state the specific appointee’s duties and provide the
      authority for the appointee to receive and disburse cash. Also, the appointee
      acknowledges liability to the United States for all public funds under their
      control. Appointment letters should also include a statement that confirms that
      the appointee has been counseled with regard to pecuniary liability and has been
      given written operating instructions.



                                                11
    Dates in the appointment letters are important because individuals appointed as
    agent officers are generally not authorized to serve concurrently in any other
    accountable position and cannot be charged with the handling or custody of any
    other funds.

    Disbursing officers and deputy disbursing officers did not follow the specific
    appointment requirements in the FMR, volume 5, chapter 2, and were inattentive
    to the details required for the appointment process. Disbursing officers assumed
    that the employees being appointed as deputy disbursing officers were U.S.
    citizens and did not check citizenship. Also, CDS appointment letters did not
    include statements confirming that the appointee had been counseled with regard
    to pecuniary liability and had been provided written instructions as required by
    the FMR. These statements were likely omitted from the appointment letters
    because the appointment letter template in the CDS Procedures Manual, dated
    May 2001, did not include these confirmations as required by FMR.


Cash Vulnerabilities and Management Assertion
    The cash balance reported on the Army General Fund balance sheet is not ready
    for audit. The Army disbursing officers had not implemented OMB and FMR
    requirements so there was no assurance that cash transactions were recorded,
    accumulated, and reported properly and that cash was adequately safeguarded.
    Inadequate internal controls increased the vulnerability to fraud and potential
    misstatement of cash on the Army General Fund balance sheet. DFAS
    Indianapolis Operations made a $1.5 billion journal voucher adjustment to adjust
    the general ledger to a source that was unreliable and unauditable because of
    inadequate internal controls. Disbursing officer cash was overstated and accounts
    receivable were understated because disbursing officer cash disbursements were
    not timely and properly recorded. In addition, the current manual processes
    involved in recording, accumulating, and reporting cash transactions will increase
    the amount of time needed to perform an audit, audit risk, and the potential cost of
    an audit.


Adequacy of Management’s Self-Evaluation
    The FY 2005 self-evaluation of internal controls prepared by CDS officials did
    not identify the lack of audit trails, cash and blank check stock verifications,
    Daily Agent Accountability Summary prepared by agent officers, physical
    security of cash, and use of a general ledger at the transaction level, as material
    internal control weaknesses in the Annual Statement of Assurance. CDS officials
    identified the Agent Account Statement (DD Form 1081), agent officer
    appointment letter process, limited depositary account reconciliations, centralized
    repository of detailed agent information, and cash accountability as assessable
    units. However, the CDS evaluation did not identify the specific material internal
    control weaknesses identified by the audit because the CDS evaluation did not
    address the details of cash controls. Until the recommendations in this report
    have been implemented and the internal control weaknesses have been corrected


                                        12
    and the corrective actions validated, CDS should report cash internal controls as a
    material weakness in the CDS internal control program.


Management Actions
    We briefed the Army and DFAS Indianapolis Operations on the results of our
    audit work. As a result, DFAS Indianapolis Operations and CDS took the
    following corrective actions.

           •   Developed wording to be used in the footnotes to disclose the
               unreliability and unauditability of the amount reported as cash in the
               custody of agents.

           •   Provided three account holders training on completing the SF 1149.

           •   Implemented monthly reviews of all limited depositary accounts to
               serve as a second validation.

           •   Initiated bi-weekly limited depositary account meetings to report any
               issues or problems to supervisory personnel.

    USACE took the following corrective actions.

           •   Updated its Internal Policy Guide to reflect the FMR requirement to
               change the safe combinations every 6 months.

           •   Posted the accountable individual’s name and phone number both
               inside and outside the vault, safe, or fund container.

           •   Verified and documented the verification of the U.S. citizenship of
               deputy disbursing officers.
    In addition, the USACE Finance Center intends to document future security
    inspection activities, document why an intrusion detection system on the vault
    was not needed, and implement a process for administrative personnel outside the
    disbursing and accounting organization to independently verify check stock and
    limited depositary accounts on a quarterly basis.


Recommendations, Management Comments, and Audit
  Response
    Deleted Recommendation. We have deleted Recommendation 2.f. made to the
    Director of CDS to report cash controls as a material internal control weakness.
    We deleted this recommendation because Army has agreed to address the internal
    control deficiencies in the Army Chief Financial Officers Strategic Plan and the
    Financial Improvement and Audit Readiness Plan. We plan to address the
    internal control deficiencies in the Independent Auditor’s Report on the Fiscal


                                        13
Year 2006 Army General Fund Financial Statements. However, we disagree with
the following Director of DFAS, Indianapolis Operations comments:

       •   the audit findings “focus primarily on non-compliance regardless of
           compensating controls;”

       •   the findings represented “isolated incidents at a single subordinate
           site;” and

       •   “the auditors were unable to identify specific cases cited in general
           terms in the report.”

As was clearly stated in the report and in the auditor responses below, the auditors
evaluated and considered compensating controls during the course of the audit
and cited specific examples of internal control weaknesses from multiple
subordinate sites.

1. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller) include a plan to resolve the internal control
deficiencies discussed in this report in the Army Chief Financial Officers
Strategic Plan and Financial Improvement and Audit Readiness Plan.

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that they will include tasks to
address the internal control deficiencies in the Army Chief Financial Officers
Strategic Plan and the Financial Improvement and Audit Readiness Plan by
March 31, 2007.

2. We recommend that the Director, Central Disbursing Services, Defense
Finance and Accounting Service Indianapolis Operations:

      a. Develop a complete agent officer roster as required by
DoD 7000.14-R, Financial Management Regulation, volume 6A, chapter 2.

        Management Comments. The Director of DFAS Indianapolis
Operations partially concurred and stated that there is no regulatory requirement
for a disbursing office to centrally maintain a listing of paying agents. The
Director agreed to facilitate the audit process by performing a data call of each of
the subordinate deputy and disbursing operations for each disbursing station to
obtain a listing of paying agents.

        Audit Response. The comments provided by the Director of DFAS
Indianapolis Operations were not responsive. We agree that the FMR does not
specifically require that a complete roster of paying agents be maintained.
However, FMR, volume 6A, chapter 2, does require that sufficient detail be
retained to permit the tracing of transactions to the original source. Maintaining a
complete roster of paying agents is a temporary solution to the lack of audit trails
for cash transactions until DFAS and the Army implement adequate accounting
systems and processes. The Army has deferred its plans to assert on cash for two
years, until September 2008. It is imperative that the lack of cash audit trails be
corrected before the Army attempts to assert on the cash balance reported on its


                                     14
financial statements. As the report discusses, the Army accounts for $1.5 billion
(72 percent) of the $2.1 billion of DoD cash. We request that the Director
reconsider his position and provide additional comments to the report.

       b. Issue written instructions to agent officers requiring them to sign
and return the Statement of Agent Officer’s Account (DD Form 1081)
required by DoD 7000.14-R “DoD Financial Management Regulation,”
volume 5, chapter 19.

        Management Comments. The Director of DFAS Indianapolis
Operations partially concurred by stating that if the paying agent fails to return
the DD Form 1081, CDS queries a Treasury system and prints a copy of a signed
check as proof of receipt of funds, with verification through the banking system.
DFAS will request an update to the FMR to address this issue as it relates to
remote funding of agents through the use of check or bank transfer. This action
will be completed by December 31, 2006.

        Audit Response. The comments provided by the Director of DFAS,
Indianapolis Operations were not responsive. The compensating controls
discussed in the Director’s comments emphasize reactive measures to query a
Treasury system instead of following the FMR. Enforcing the FMR requires the
fund recipient to acknowledge receipt and fiduciary responsibility by signing the
DD Form 1081 and returning it in the stamped envelope. Instead, the Director’s
proposed measures require DFAS to prove receipt through manual queries,
relying on the banking system to verify signatures, and relying on the Treasury to
recover fraudulently cashed checks. We request that the Director reconsider his
position and provide additional comments to the report.

       c. Update the Centralized Disbursing Services Procedures Manual to:

             (i) Require all agent officers of the disbursing officer to
prepare and submit the Daily Agent Accountability Summary
(DD Form 2665) as required by the DoD 7000.14-R, “DoD Financial
Management Regulation,” volume 5, chapter 19.

               Management Comments. The Director of DFAS Indianapolis
Operations nonconcurred, stating that the intent of the cited guidance is for the
Daily Agent Accountability Summary (DD Form 2665) to be prepared and
submitted by each deputy disbursing officer or disbursing agent activity, not by
individual paying agents. DFAS will request an update to the FMR to clarify this
intent. This action will be completed by December 31, 2006. DFAS also stated
that the CDS Procedures Manual has been updated to clarify this intent.

               Audit Response. The comments provided by the Director of
DFAS Indianapolis Operations were not responsive. A process should be in place
that provides an audit trail and permits tracing of cash transactions and validation
of cash balances at the source. A source for Army cash disbursements is the
paying agent. The DFAS response discussed an exception for paying agents
because they are funded for a limited period of time. Our review concluded that
paying agents are often funded for extended periods of time. As of December 12,
2005, the 107 paying agents of the of Defense Military Pay Office Pentagon


                                     15
deputy disbursing officer had 248 active appointments. The length of these
appointments ranged from 10 to 731 days, with an average of 200 days. As stated
in the report, based on a sample of these paying agents, actual cash on hand was
substantially less than what was reported on their Agent Account Statements (DD
Forms 1081). Without requiring a daily record of transactions from Army paying
agents, the Army will be unable to readily provide an adequate audit trail. The
audit trail would end at the balance on the DD Form 1081, and Army cash could
be materially overstated. We request that the Director reconsider his position and
provide additional comments to the report.

            (ii) Develop a standard cash verification review checklist based
on DoD 7000.14-R, “DoD Financial Management Regulation,” volume 5,
Appendix A.

               Management Comments. The Director of DFAS Indianapolis
Operations concurred and stated the CDS Procedures Manual was updated on
July 26, 2006.

             (iii) Require all cash verifications and reports be performed
and submitted to Central Disbursing Services as specified by DoD 7000.14-R,
“DoD Financial Management Regulation,” volume 5, Appendix A.

              (iv) For each type of Treasury check stock used by Central
Disbursing Services require that a blank check control log containing the
elements outlined in DoD 7000.14-R, “DoD Financial Management
Regulation,” volume 5, chapter 7 be maintained and reviewed on a daily
basis.

                Management Comments. The Director of DFAS Indianapolis
Operations partially concurred with Recommendations 2.c.iii and 2.c.iv. The
Director stated that personnel are performing unannounced quarterly cash
verifications and that the CDS Procedures Manual has been updated. In addition,
the Director stated that check accountability is performed daily on all blank check
stock using the inventory control number.

               Audit Response. The comments provided by the Director of
DFAS Indianapolis Operations met the intent of the audit recommendation. The
two FMR requirements were added to the CDS Procedures Manual on
July 26, 2006.

               (v) Complete an inventory of each type of Treasury check
stock at least once every 90 days and retain the results for inclusion in the
quarterly cash verification report.

                (vi) Require that Disbursing Officers and agent officers
implement the security requirements and recommendations addressed in
DoD 7000.14-R, “DoD Financial Management Regulation,” volume 5,
chapter 3, specifically the areas addressed in the “Physical Security of Cash”
section of this report.




                                    16
              (vii) Require that all persons, such as a cash verification team,
provide valid proof of identification before gaining access to the secured
area.

              (viii) Update the appointment letter guidance to include all the
requirements provided in DoD 7000.14-R, “DoD Financial Management
Regulation,” volume 5, chapter 2.

               Management Comments. The Director of DFAS Indianapolis
Operations concurred with Recommendations 2.c.v, 2.c.vi, 2.c.vii, and 2.c.viii.
The Director stated the CDS Procedures Manual was updated on July 26, 2006.

       d. Update the limited depositary accounts operating procedures to
include the following.

              (i) Monitor the submission of Statements of Designated
Depositary Accounts (SFs 1149) to ensure reconciliations are submitted
within 30 days of the close of calendar month.

               Management Comments. The Director of DFAS Indianapolis
Operations partially concurred, stating it is not practical for remote activities
operating limited depositary accounts with rudimentary banking infrastructures to
receive and reconcile banking statements within 30 days. DFAS will request the
FMR be updated to change the requirement from 30 to 60 days. This action will
be completed by January 29, 2007.

                Audit Response. The comments provided by the Director of
DFAS Indianapolis Operations were not responsive. The Director did not state
whether the limited depositary accounts operating procedures would be updated
to monitor submission of reconciliations within the 30-day regulatory time frame.
We agree with the 30-day requirement in the FMR. If it is not practical for
remote activities operating limited depositary accounts with rudimentary banking
infrastructures to receive and reconcile banking statements within 30 days, an
exception should be granted for these activities. Instead of changing the
requirement from 30 to 60 days, the FMR can be updated to clearly define when a
waiver to the 30-day rule can be granted and the process for granting it. We
request that the Director reconsider his position and provide additional comments
to the report.

              (ii) The Disbursing Officer must review and sign off
Statements of Designated Depositary Accounts (SFs 1149) once they are
received by Central Disbursing Services.

               Management Comments. The Director of DFAS, Indianapolis
Operations concurred and stated the Director, CDS is now provided all completed
SFs 1149 for signature on a monthly basis.

       e. Retrain each limited depositary account holder on completion of
the Statement of Designated Depositary Account (SF 1149).




                                    17
        Management Comments. The Director of DFAS, Indianapolis
Operations partially concurred, stating that training finance personnel is a joint
DFAS and Army responsibility. The Director stated that they will review current
training to ensure sufficient emphasis is placed on limited depositary account
maintenance and reconciliation. This action will be completed by January 29,
2007.

        Audit Response. The comments provided by the Director of DFAS,
Indianapolis Operations met the intent of the recommendation. We agree that
current training, which includes refresher training, should be reviewed to ensure
emphasis is placed on limited depositary account maintenance and reconciliation.

3. We recommend that the Director, U.S. Army Corps of Engineers Finance
Center develop and implement procedures to:

        a. Verify that the cash verification team performs all required
independent quarterly check stock and limited depositary account
verifications and that the reports address all areas required by
DoD 7000.14-R, “DoD Financial Management Regulation,” volume 5,
Appendix A.

      b. Improve physical security as required by the DoD 7000.14-R,
“DoD Financial Management Regulation” volume 5, chapter 3, by
implementing the following security procedures:

             (i) Conduct inspections of security measures at least
semiannually and maintain a record of the inspections.

             (ii) Change combinations to all vaults, safes, and containers
semiannually and maintain a record of combination changes.

Management Comments. The Director, U.S. Army Corps of Engineers Finance
Center concurred and stated they have implemented programs and updated
procedures to address issues related to independent verifications and security
procedures. The U.S. Army Corps of Engineers Finance Center provided
evidence supporting the implementation of the audit recommendations on
September 11, 2006.




                                    18
Appendix A. Scope and Methodology
   We reviewed the internal controls over operational, unclassified Army Cash and
   Other Monetary Assets that are accounted for in CONUS. We also included two
   areas related to outside CONUS activities. The current cash accountability and
   documentation of the outside CONUS areas was the responsibility of a CONUS
   site included in our review, which allowed their inclusion in the audit. The areas
   within our scope totaled $370.3 million, or 25 percent, of the $1.5 billion of the
   cash reported on the FY 2005 Army General Fund balance sheet. However, our
   review did not include $100,000 of USACE funds; $1,549,893 of DFAS
   Columbus funds; and $698 of Defense Threat Reduction Agency funds. See
   Table A on page 18 for further detail of the $370.3 million by site and cash type.
   We specifically reviewed the controls over the recording, accumulation,
   reporting, and safeguarding of Army Cash and Other Monetary Assets. The areas
   and controls we reviewed included disbursing officers and agent officers, cash
   verifications, cash security, payments and collections, Statements of
   Accountability, computer systems, foreign currency, and financial statement
   reporting procedures. The controls, procedures, and role definitions are
   documented in the FMR. In addition, we assessed management’s implementation
   of the FMR and adequacy of management’s operating procedures.

   We judgmentally selected 7 of the 17 sites with operational, unclassified, CONUS
   cash based on the amount of cash on hand or on deposit as of September 30,
   2005. The seven sites selected, plus the two outside CONUS areas, were
   responsible for $368.6 million of the $370.3 million, or 99 percent, of the Cash
   and Other Monetary Assets within the scope of our review.

   Our review consisted of observations of cash counts at five of the seven locations.
   The other two sites, CDS and the USACE Finance Center, had no currency on
   hand to count. We also evaluated physical security measures through direct
   observation, review of documentation, and discussions with disbursing officers or
   deputy disbursing officers at each of the seven locations. We conducted
   interviews with management and operating personnel responsible for the
   accounting and reporting of cash. Additionally, we reviewed the following
   accountability forms for locations where they were applicable for accuracy,
   completeness and timeliness:
          •   Statement of Agent Officer’s Account (DD Form 1081),

          •   Daily Statement of Accountability (DD Form 2657),

          •   Daily Agent Accountability Summary (DD Form 2665),

          •   Statement of Accountability (SF 1219).

   We examined documentation and discussed procedures for quarterly cash
   verifications with the applicable disbursing officers and deputy disbursing
   officers. We also assessed the appointment letters for all of the disbursing
   officers and agent officers at all seven locations for content compliance with the
   FMR. We judgmentally selected a sample of agents from the location reviewed


                                        19
      and determined the amount of funds they had on hand compared to the records
      maintained by the deputy disbursing officer. We reviewed the limited depositary
      account reconciliation process and reconciliations using Statement of Designated
      Depositary Account (SF 1149), along with supporting documentation for
      FY 2005, for completeness, accuracy, timeliness, and proper approval.

      We performed this audit from August 2005 through July 2006 in accordance with
      generally accepted government auditing standards.

      Use of Computer-Processed Data. We relied upon computer-processed data
      from SRD1, a module of STANFINS. STANFINS is a general fund accounting
      system developed to support the day-to-day operations of Army installations and
      the National Guard. Specifically, we relied upon SRD1 output that included
      Army’s Daily Accountability Worksheet and Proof of Cash (DA Form 5260), the
      Agent Accountability Form (DD Form 2665), as well as the Agent Account
      Statement (DD Form 1081). We also relied on output from the Corps of
      Engineers Financial Management System including the individual district and
      Corps-wide Monthly Accountability Forms (SF 1219s) and payments and
      collections data. We did not perform an assessment of computer processed
      financial data; however, we did not find any errors or discrepancies that that
      would preclude the use of the SRD1 data to meet the objectives of this audit or
      that would change the conclusions of this report.

      Management Control Program. We reviewed the adequacy of DFAS
      Indianapolis Operations and the USACE Finance Center internal controls over the
      recording, accumulating, reporting, and safeguarding of Army Cash and Other
      Monetary Assets. Specifically, we reviewed internal controls over disbursing
      officer and agent officers, cash verifications, cash security, payments and
      collections, Statements of Accountability, computer systems, and foreign
      currency. We reviewed management’s self-evaluations applicable to those
      controls.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the Defense Financial Management high-risk area.


Prior Coverage
      During the last 8 years, the Army Audit Agency (AAA) and the Air Force Audit
      Agency (AFAA) have issued 3 reports discussing cash and other monetary assets.
      Unrestricted AAA reports can be accessed over the Internet at
      https://www.aaa.army.mil/reports.htm. Unrestricted AFAA reports can be
      accessed at https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.

AAA
      AAA Report No. AA99-115, “Army’s Principal Financial Statements for Fiscal
      Year 1998,” January 27, 1999


                                          20
AFAA
   AFAA Report No. 00054005, “Controls Over Cash,” August 18, 2000

   AFAA Report No. F2002-0007-B05400, “Follow-up Audit, Controls Over Air
   Force Cash,” June 20, 2002




                                   21
                                                                          Table A. Detailed Scope Amounts By Site

                                                                                     Undeposited                     Cash in                                              Limited
                                                                                   Collections and                  Custody of                Losses of                 Depositary
                  Site Name                                      Cash             Dishonored Checks                  Agents                    Funds                     Account
     Walter Reed Army Medical Center                             $ 52,072                           0                          0                        0                           0
     Ft. Leavenworth, KS                                              630                           0                          0                        0                           0
     Ft. Sam Houston, TX                                            5,000                           0                          0                        0                           0
     Ft. Benning, GA                                                3,500                           0                          0                        0                           0
     Ft. Campbell, KY                                               7,100                           0                          0                        0                           0
     Ft. Knox, KY                                                  10,000                           0                          0                        0                           0
     Ft. Bragg, NC                                                 25,000                           0                          0                        0                           0
     Pentagon                                                    100,0001                           0                  $993,0751                        0                           0
     Ft. Carson, CO                                                10,000                           0                          0                        0                           0
22




     Ft. Bliss, TX                                                  7,500                           0                          0                        0                           0
     Ft. Hood, TX                                                  20,000                           0                          0                        0                           0
     Change Funds (2 locations)                                         0                           0                      2,250                        0                           0
     CDS Afghanistan LDAs                                               0                           0                          0                        0                $ 17,024,799
     CDS (Indianapolis)                                                 0                           0                          0               $ 30,063                             0
     Defense Threat Reduction Agency                                    0                   $     698                          0                        0                           0
     DFAS Columbus, OH                                                  0                           0                          0                        0                   1,549,893
     DFAS Rome, NY                                                      0                           0                          0                6,402,725                           0
     USACE Finance Center                                               0                     100,000                          0                        0                 344,001,297
                                                                        0                           0                          0                        0                           0

         Sub-totals                                             $240,802                        $100,698                $995,325               $6,432,788                $362,575,990

         Total                                                                                                                                                                                    $370,345,603
     1
         The total accountability for the Pentagon site is $1,093,075 (100,000 + 993,075). The cash (currency) amount is an estimate because the Pentagon deputy does not break out cash on hand on the daily
     accountability form. This site was visited twice during our audit, with $88,000 and $148,000 being the cash on hand on each occasion. Therefore, $100,000 was judgmentally chosen as an estimate so this table
     reflects that the Pentagon site does have cash (currency) on hand.
Appendix B. Glossary
   Accountability. The responsibility for safeguarding, maintaining, disbursing,
   and otherwise disposing of public funds.

   Agent Officers. Agents to the disbursing officers which include deputy
   disbursing officers, disbursing agents, cashiers, and paying agents.

   Appointment Letters. A letter that states the specific duties authorized to be
   performed by the disbursing officer and all other agent officers, and includes the
   statement “I acknowledge that I am strictly liable to the United States for all
   public funds under my control.” This letter also includes a statement that
   confirms that the appointee has been counseled with regard to pecuniary liability
   and has been given written operating instructions.

   Cashier. A military member or DoD civilian employee designated by the
   disbursing officer to perform duties involving the handling of public funds.

   Daily Agent Accountability Summary (DD Form 2665). This form shall be
   prepared by each deputy, agent, and cashier for each day which they transact
   business. DD Form 2665 summarizes transactions for each business day and is a
   stand-alone document that provides a complete picture of the deputy, agent, or
   cashier’s accountability transactions from day to day.

   Daily Statement of Accountability (DD Form 2657). This form summarizes the
   amounts the U.S. Treasury would look to recover from the disbursing officer if
   the disbursing office ceased operations on that day. The amounts listed on the
   DD Form 2657 are at summary level only. The daily DD Form 2657 must be
   signed by the disbursing officer as an official attestation of accountability to the
   U.S. Treasury.

   Deputy Disbursing Officer (DDO). An individual appointed by the disbursing
   officer to act in the name of and for that disbursing officer to perform any and all
   acts relating to the receipt, disbursement, custody, and accounting for public
   funds.
   Disbursing Office. An activity or the organizational unit of an activity whose
   principal function consists of the disbursement, collection and reporting of public
   funds. The term “disbursing office” includes both tactical and non-tactical
   disbursing activities.

   Disbursing Officer (DO). A military member or a civilian employee of a DoD
   Component designated to disburse moneys and render accounts according to laws
   and regulations governing the disbursement of public monies.

   Disbursing Station Symbol Number (DSSN). A four-digit number assigned to
   each disbursing office by the Department of Treasury. The Disbursing Station
   Symbol Number is an identification number that indicates authority to receive and
   disburse public funds and issue checks on the U.S. Treasury.



                                        23
Limited Depositary Account (LDA). A checking account in a foreign currency
maintained in a limited depositary by a disbursing officer in his or her name.

Paying Agent. A military member or DoD civilian employee appointed by the
commander to act as an agent of a disbursing officer. The purpose of a paying
agent is to make specific payments, currency conversions, or check cashing
transactions from funds temporarily advanced to the agent by the disbursing
office.

Statement of Accountability (SF 1219). This form provides monthly summary
totals of all receipts and expenditures of public funds occurring during the
accounting period and the status of the disbursing officer’s account at the close of
that period. SF 1219 must be submitted for each Disbursing Station Symbol
Number assigned to a disbursing office, whether or not any transactions occur or
any accountable balance is involved.

Statement of Agent Officer’s Account (DD Form 1081). This form must be
prepared by deputies, agents, and cashiers as a summary of cash transactions and
receipt for cash and vouchers on hand each time turn-in or settlement of the
account occurs. DD Form 1081 summarizes cash transactions for the period of
duty covered by the turn-in.

Statement of Designated Depositary Account (SF 1149). This form must be
prepared and submitted within 30 days following the close of each calendar
month, by the disbursing officer holding an open limited depositary account and
by accountable individuals charged with the settlement of closed accounts.




                                     24
Appendix C. Criteria

Office of Management and Budget
    OMB Circular A-127, “Financial Management Systems,” July 23, 2003,
    prescribes policies and standards for executive departments and agencies to
    follow in developing, operating, evaluating, and reporting on financial
    management systems. OMB Circular A-127 establishes Government-wide
    financial systems and compatible agency systems, with standardized information
    and electronic data exchange between central management agency and individual
    operating agency systems, to meet the requirements of good financial
    management. These systems must provide complete, reliable, consistent, timely,
    and useful financial management information on Federal Government operations.

    OMB Circular A-127 requires that agency financial management system
    requirements comply with application of the USSGL at the transaction level.
    Therefore, financial events are to be recorded by agencies throughout the
    financial management system by processing transactions following the definitions
    and defined uses of the general ledger accounts as described in the USSGL.
    Compliance with this standard requires that data in financial reports and
    transactions recorded are consistent with USSGL rules, and that supporting
    transaction detail for USSGL accounts is readily available.


DoD 7000.14-R, the “DoD Financial Management Regulation”
    The following FMR guidance addresses audit trails, general ledger accounting,
    and other related areas.

           •   Volume 1, chapter 3, paragraph 030201, “Financial Management
               and Accounting System Structure,” states that DoD is responsible
               for developing and maintaining an integrated financial management
               system structure.
           •   Volume 4, chapter 2, paragraph 020601, “Accounting Entries for
               Disbursing Officer's Cash (Account 1191),” states that the amount
               of U.S. Treasury cash held by disbursing officers at personal risk is
               recorded in the “Disbursing Officer’s Cash” general ledger account.
               The guidance also requires the recording of accounts receivable
               because the Disbursing Officer's Cash is to be reimbursed by the
               appropriation or fund on whose behalf the disbursement was made.
               Sources of entries to the “Disbursing Officer’s Cash” and “Accounts
               Receivable” general ledger accounts include requests for cash,
               invoices for transferred funds, reimbursement vouchers, and
               disbursement records.



                                       25
       •   Volume 5, chapter 19, paragraph 190104, “Overview of
           DD Form 2665 (Daily Agent Accountability Summary),” states,
           “Each deputy, agent, and cashier shall prepare a DD Form 2665 for
           each day during which they transact business.” The regulation further
           explains, “The DD Form 2665 is a stand-alone document that provides
           a complete picture of the deputy, agent, or cashier’s accountability
           transactions from day to day.”

       •   Volume 6A, chapter 2, “Financial Reports Roles and
           Responsibilities,” provides that it is the joint responsibility of DFAS
           and the applicable DoD Component to prepare and issue a DoD
           component financial report, for which DFAS provides accounting
           support. The guidance also provides that DFAS and the applicable
           DoD Component share joint responsibility to ensure that a complete
           and documented audit trail is maintained to permit tracing of
           transactions.

The following FMR guidance addresses quarterly cash verifications and
reconciliations, physical security of cash, and other related areas.

DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,”
volume 5, “Disbursing Policy and Procedures”:

       •   Chapter 2, “Disbursing Offices, Officers, and Agents” states the
           appointment letter must contain the paying or postal paying agent’s
           name, rank or grade, social security number, and duty station; the
           name, rank or grade, and station of the disbursing officer for whom the
           paying agent will act; and the Disbursing Station Symbol Number.
           Chapter 2 further states that all disbursing officer and deputy
           disbursing officers must be U.S. citizens.

       •   Chapter 3, “Keeping and Safeguarding Public Funds” outlines the
           requirements of safeguarding funds and related documents, cash
           holding authority, and determining cash requirements.

       •   Chapter 7, “U.S. Treasury Checks” outlines the requirements for
           security and control of U.S. Treasury checks.

       •   Chapter 14, “Limited Depositary Checking Accounts” provides the
           procedures to perform limited depositary account reconciliations.

       •   Chapter 19, “Disbursing Officer Accountability Reports” states the
           agent officer must verify that the items received are in agreement with
           the amounts stated on the Statement of Agent Officer’s
           Account (DD Form 1081) with a signature and date. The original
           Agent Account Statement is returned to the disbursing officer as a
           receipt for the funds.

       •   Appendix A, “Cash Verification” provides the cash verification
           procedures, cash verification team checklist and finalization (reporting
           requirements) for disbursing personnel.


                                    26
Appendix D. Disbursing Officer Cash
            Accountability

                             Army Disbursing Officer Cash Accountability 8
                                                  Disbursing Station        DD 2657/
                                                                                           SF 1219
                                                       (DSSN)                DA 5260
                                                                                         Monthly SOA
                                                Disbursing Officer (DO)     Daily SOA


                                                      DD 1081
                               Adjust DDO          Check/Electronic
                              Accountability        Funds Transfer
             DD 2665                                    (EFT)
            Daily Agent
           Accountability
                                                       Deputy
                                                  Disbursing Officer
                                                       (DDO)



                               Adjust Agent           DD 1081
                               Accountability        Check/EFT


             DD 2665                             Disbursing Agents
            Daily Agent                            Paying Agents
           Accountability                       Change Fund Agents
                                                     Cashiers



                                                   Agent Activity

                                                                           Cash         Advance
             Pay Travel          Purchases           Collections                         Other
                                                                          Checks
                                                                                        Agents


                                                                          Deposit        DD 1081
              Voucher             Voucher             Voucher
                                                                           Ticket       Check/EFT




8
    Statement of Accountability (SOA); Electronic Funds Transfer (EFT)



                                                     27
Appendix E. Assertion Phases


       Five Phases of the Financial Improvement and Audit Readiness Plan


            Major Phases                       Actions Taken


    Discovery/Correction      Identify and correct deficiencies and plan
                              solutions to produce accurate data.


    Validation                Ensure that corrective actions taken achieved
                              resolution and save unnecessary/assessment audit
                              costs.


    Assertion                 Inform the DoD Office of Inspector General that
                              organization is ready for audit and prepare
                              assertion package to provide to the DoD Office of
                              Inspector General.


    Assessment                Attest to management assertion; allows
                              remediation; prepares for audit; reduce risk of
                              unknowns (auditors); introduction to organization
                              (auditors).


    Audit                     Required by CFO Act; provide decision-makers
                              good information on: assets and liabilities, cost
                              visibility, internal controls; and supports an
                              unqualified Defense Agency-Wide opinion.




                                   28
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Director, U.S. Army Corps of Engineers Finance Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service


Non-Defense Federal Organization
Office of Management and Budget




                                          29
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        30
Department of the Army Comments




                    31
Defense Finance and Accounting Service
Comments




                      32
Defense Finance and Accounting Service
Comments




                      33
Defense Finance and Accounting Service
Comments




                      34
Defense Finance and Accounting Service
Comments
                                         Final Report
                                          Reference




                                         Deleted




                      35
U.S. Army Corps of Engineers Finance Center
Comments




                      36
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Carmelo G. Ventimiglia
Craig W. Michaels
Carl Hansen
Cheri D. Givan
Paul R. Glenn
William Kansteiner
Jamie E. Vandesteene
Kevin McNeil
Catherine Bird
